<html>
<title> - NOMINATION OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. TO BE UNDER SECRETARY FOR OCEANS AND ATMOSPHERE AT THE U.S. DEPARTMENT OF COMMERCE AND ADMINISTRATOR OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION</title>
<body><pre>[Senate Hearing 107-975]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-975


 
                   NOMINATION OF VICE ADMIRAL CONRAD
                    C. LAUTENBACHER, JR. TO BE UNDER
                  SECRETARY FOR OCEANS AND ATMOSPHERE
                   AT THE U.S. DEPARTMENT OF COMMERCE
                   AND ADMINISTRATOR OF THE NATIONAL
                 OCEANIC AND ATMOSPHERIC ADMINISTRATION

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                       THURSDAY, NOVEMBER 8, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



87-497             U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAM BROWNBACK, Kansas
MAX CLELAND, Georgia                 GORDON SMITH, Oregon
BARBARA BOXER, California            PETER G. FITZGERALD, Illinois
JOHN EDWARDS, North Carolina         JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              GEORGE ALLEN, Virginia
BILL NELSON, Florida

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Jeanne Bumpus, Republican General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on November 8, 2001.................................     1
Statement of Senator Wyden.......................................     1
    Prepared statement...........................................     3
Statement of Senator Stevens.....................................     3

                                Witness

Lautenbacher, Vice Admiral Conrad C., nominated to be Under 
  Secretary for Oceans and Atmosphere at the U.S. Department of 
  Commerce and Administrator of the National Oceanic and 
  Atmospheric Administration.....................................     4
    Prepared statement...........................................     5
    Biographical and financial information.......................     6

                                Appendix

Snowe, Senator Olympia, prepared statement.......................    29
Responses to written questions submitted to Vice Admiral Conrad 
  C. Lautenbacher by:............................................
    Hon. Ernest F. Hollings......................................    19
    Hon. John McCain.............................................    20
    Hon. John Kerry..............................................    24
    Hon. Olympia Snowe...........................................    25
    Hon. Ron Wyden...............................................    27
    Hon. Daniel Inouye...........................................    28


                   NOMINATION OF VICE ADMIRAL CONRAD
                    C. LAUTENBACHER, JR. TO BE UNDER
                  SECRETARY FOR OCEANS AND ATMOSPHERE
                     AT THE DEPARTMENT OF COMMERCE
                   AND ADMINISTRATOR OF THE NATIONAL
                 OCEANIC AND ATMOSPHERIC ADMINISTRATION

                              ----------                              


                       THURSDAY, NOVEMBER 8, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 

SR-253, Russell Senate Office Building, Hon. Ron Wyden, 
presiding.

             OPENING STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. The hearing will come to order.
    First let me apologize to you, Mr. Lautenbacher. We have 
been juggling a number of matters on the floor. It seems to 
change every few minutes, and my apologies to you for the delay 
and any inconvenience.
    We are pleased today to consider the nomination of Vice 
Admiral Conrad Lautenbacher as the eighth Under Secretary for 
Oceans and Atmosphere and Administrator of the National Oceanic 
and Atmospheric Administration. I understand, sir, that Deputy 
Secretary Bodman is with you. We would also like to thank him 
for his ongoing cooperation and we are glad to have him here.
    NOAA was created on October 3rd, 1970, due in large part to 
the work of our distinguished Chairman, Senator Hollings. 
Congress created NOAA in order to provide ``better protection 
of life and property from natural hazards, for better 
understanding of the total environment, and for exploration and 
development leading to intelligent use of our natural 
resources.''
    All the Members of this Committee recognize the need to 
have an agency whose mission is to describe and predict changes 
in the Earth's environment and to conserve and wisely manage 
the nation's coastal and marine resources. The recently 
established Commission on Public Policy is going to take a new 
look at these issues, which ought to raise the profile of NOAA 
issues nationally and certainly here in Washington, DC.
    With an annual appropriation of over $3 billion and over 
11,000 employees located in every state, NOAA represents over 
60 percent of the Department of Commerce's budget and nearly 30 
percent of the total Department of Commerce workforce. The 
agency faces a number of challenges over the next decade, 
including management of the coastal zone, protecting and 
managing fish stocks and marine mammals, providing critical 
information on climate change, and continuing to protect the 
public and facilitate commerce by issuing state-of-the-art 
forecasts and warnings.
    One-half of the nation's population lives within 50 miles 
of the coast and if population trends continue as expected, 
pressure on conflicting demands for ocean coastal resources are 
likely to increase, as will vulnerability to coastal hazards. 
States and coastal communities certainly need an activist 
federal government to improve coordination, strengthen 
partnerships, and provide the necessary resources.
    Given our nominee's experience both in and out of the 
federal government, he clearly is in a position to assist the 
NOAA team. We believe your practical management experience will 
also serve you well in efforts to improve NOAA management of 
marine fisheries and devise innovative solutions.
    As I think our nominee knows, our West Coast groundfish 
fishery and the communities that depend on it are clearly in 
desperate shape. Over the past decade, the West Coast 
groundfish fishery has experienced a population decline for 
several of the species that comprise the fishery, forcing the 
managers to impose even more strict regulations and leading to 
a great deal of economic dislocation.
    I am particularly concerned that the management of the 
Northwest Region has ignored a number of these looming 
problems. I will say that the NOAA Fisheries Director Bill 
Hogarth is now working to improve this situation, and clearly 
there is much to do. I happen to believe that a serious 
management evaluation is warranted.
    I want the nominee to know that I look forward to working 
with him and Dr. Hogarth on these issues. The challenge is to 
get the right number of fishers out there at the right time, 
catching the right number of fish, in order to make this 
industry sustainable. The average fisherman in Oregon has now 
lost 40 percent of his income and in some cases regulations 
have cut the total allowable catch by 90 percent. There has 
been no long-term help for the fisher who wants out of this 
regulatory nightmare.
    For the past few years, Congress has provided economic 
assistance to help these folks get by and that is to a great 
extent through the help of Chairman Hollings and Senator 
Stevens, and we are very appreciative Senator Stevens is here.
    But we also need you as our nominee to help find these 
creative solutions to there being too many fishers and not 
enough fish. That has been the challenge year after year.
    I am going to put the rest of my prepared remarks into the 
record so I can recognize my colleague who has been patient, 
Senator Stevens.
    [The prepared statement of Senator Wyden follows:]

                Prepared Statement of Senator Ron Wyden

    Good afternoon. It is my distinct pleasure to convene this hearing 
today to consider the nomination of Vice Admiral Conrad Lautenbacher as 
the eighth Under Secretary for Oceans and Atmosphere and Administrator 
of the National Oceanic and Atmospheric Administration (NOAA) at the 
Department of Commerce. Vice Admiral, we welcome you. I understand 
Deputy Secretary Bodman is with you, and I'd like to thank him for his 
show of support. We are glad to have you here with the nominee.
    As many of you know, NOAA was created on October 3, 1970, due in 
large part to the work of our distinguished Chairman Senator Hollings. 
Congress created NOAA in order to provide ``better protection of life 
and property from natural hazards . . . for a better understanding of 
the total environment . . . and for exploration and development leading 
to the intelligent use of our natural resources.'' All of us on this 
Committee recognize the need for this country to have an agency whose 
mission is to describe and predict changes in the Earth's environment 
and to conserve and wisely manage the nation's coastal and marine 
resources. The recently established Commission on Ocean Policy will be 
taking a fresh look at these same issues, which will appropriately 
raise the profile of NOAA issues nationally and here in Washington.
    With an annual appropriation of over $3 billion and over 11,000 
employees located in every state, NOAA represents over 60 percent of 
the Department of Commerce's budget and nearly 30 percent of the total 
Department of Commerce workforce. NOAA faces a number of challenges 
over the next decades, including management of the coastal zone, 
protecting and managing our fish stocks and marine mammals, providing 
critical information on climate change and continuing to protect the 
public and facilitate commerce by issuing state of the art forecasts 
and warnings.
    One-half of the nation's population lives within 50 miles of the 
coast and if population trends continue as expected, pressure on and 
conflicting demands for ocean and coastal resources will increase, as 
will vulnerability to coastal hazards. States and coastal communities 
need federal help to improve coordination, strengthen partnerships and 
provide resources to develop coherent approaches for managing and 
protecting ocean and coastal resources. Given your experience both in 
and out of the federal government, you will have invaluable expertise 
to assist the NOAA team in this complex effort.
    Your practical management experience will also serve you well in 
efforts to improve NOAA management of marine fisheries and to devise 
innovative solutions. As you know, our West Coast groundfish fishery 
and the communities who depend upon it are in desperate shape. Over at 
least the past decade, the West Coast groundfish fishery has 
experienced a population decline for several of the species that 
comprise the fishery, forcing fisheries managers to impose ever more 
strict regulations and leading to a great deal of economic dislocation 
among fishermen and fishing communities. I am particularly concerned 
that the management of the Northwest region has ignored the looming 
problems, which has contributed greatly to the severity of the 
situation. I know NOAA Fisheries Director Bill Hogarth is working to 
improve this situation, but I think a serious management evaluation is 
warranted. I look forward to working with you and Dr. Hogarth during 
the remainder of this Congress to help resolve these issues and bring 
solutions that work to our coastal communities.
    Finally, NOAA plays a huge role in atmospheric research and 
technology development. The services provided by the National Weather 
Service are essential to ensuring the efficiency and safety of our day-
to-day activities--from fishing to air travel. Moreover, hurricane and 
polar satellites operated and managed by NOAA ensure we are able to 
predict and prevent devastating hurricanes and tornadoes. Finally, NOAA 
models and scientists form the core of the U.S. technical leadership in 
climate change prediction and monitoring. These are all critical 
missions that must not be overlooked in the ``ocean'' agency.
    I trust you will keep a firm grasp on both.
    I look forward to hearing your views about NOAA and how it can 
strengthen federal efforts to help the nation prosper on our seas and 
in our skies.
    Thank you.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Thank you very much. Mr. Chairman, I am 
here to welcome the Admiral also. I am in another meeting 
concerning the defense bill right now, but I did want to stop 
by and thank him for visiting with me. We had a discussion 
already concerning some of the issues NOAA is involved in. I do 
agree with you that Bill Hogarth is a man we can rely on.
    I have only one comment, Admiral, that I did not make 
before. I will not be able to stay and ask any questions. I do 
not have any anyway, as a matter of fact. But I do hope that 
you will look into our situation in Alaska with regard to 
global climate change. Some people say it is warming, other 
people say it is change.
    In any event, in Alaska it is real, because there is no 
question that we now have sea water intrusion in many of our 
villages. We have a situation up on the Arctic Ocean coast, 
where public and federal facilities are soon to be inundated 
with the Arctic Ocean. Our forests are moving further north. 
The permafrost is disappearing in some areas of Alaska and it 
is coming to other areas of Alaska. So it is not a total 
balance in terms of whether it is getting warmer or colder up 
our way, but there is change up there that needs more 
understanding and we need more basic research.
    I think if we could catch up and understand what is going 
on in the Arctic, we might understand what will go on in the 
rest of the country in years to come. So I encourage you to 
come up and take a look there, Admiral. I would like to travel 
around and show you some of the things that I have seen and 
hopefully find a way to get you to work with NASA. NASA also is 
very interested in this and I think that your two agencies 
could go a long way in trying to get us some understanding that 
we need of what is changing and why in the Arctic.
    But I do congratulate you and look forward to working with 
you, and I am sorry I have to leave, Mr. Chairman. Thank you 
very much.
    Senator Wyden. Senator, thank you for coming. I just 
appreciate all the help that you and Senator Hollings have 
given us on these issues.
    Admiral why do you not go ahead and make any remarks that 
you choose and then we will have some questions.

                   STATEMENT OF VICE ADMIRAL 
                  CONRAD C. LAUTENBACHER, JR.

    Admiral Lautenbacher. Yes, sir. Mr. Chairman and Senator 
Stevens. I appreciate the opportunity to be here with you 
today. First of all, I would like to ask that my statement be 
entered for the record.
    Senator Wyden. Without objection, so ordered.
    Admiral Lautenbacher. And just make a couple of opening 
comments. First of all, I want to thank the President for 
bestowing this honor on me. I appreciate very much the support 
of the Secretary of Commerce Evans and Deputy Secretary of 
Commerce Bodman in this appointment and I look forward to 
working with them.
    I am very grateful for the courtesy shown to me by the 
Members of this Committee that I visited this week. I am again, 
as I say, very happy to be here today at this hearing and 
looking forward to the future.
    I will not recount my background. I think it is well known. 
I do want to say that I think we have a number of challenges 
facing us. Senator Stevens certainly articulated some of the 
major challenges involved with climate change that will affect 
the whole country and the whole globe, not necessarily just 
Alaska, although it is deeply felt in that part of our country.
    We face a number of challenges, not just in the climate 
change, but in environmental management, environmental 
monitoring, new energy sources, in biotechnology, biodiversity, 
medicine and just the general coupling of the atmosphere and 
the Earth and the ocean systems together for the well-being of 
humanity.
    I think that we need to work in the future to support and 
bring on board all of the disciplines that are needed to build 
the basic science necessary for good public policy. The Earth 
and the atmosphere and the oceans remain coupled and the work 
that we do in the future will affect our economic health and 
the health and the well-being of each individual of this 
country and indeed for the world.
    So I think we have a lot to do. I look forward to being 
part of the team that does that mission. I am very appreciative 
and admiring of the work that NOAA has done to date. It is an 
agency that affects everybody's lives. In the morning you get 
up, the first thing you ask for is the weather report. All of 
our industries function today on understanding what is 
happening in the climate and what is happening in their 
environment. We have enormous challenges in our coastal 
environment, managing the oceans and the coastal ecology and 
the atmosphere in those areas as well.
    I would like to wrap up by saying that I am a strong 
believer in intergovernmental cooperation. I want to work 
together with all the agencies that deal with the oceans and 
the atmosphere. I want to work together with the Congress and 
the members of the staffs and all the committees that cover 
this broad area.
    I am proud to have been nominated and should I have the 
privilege of earning your confirmation I look forward to 
working with you. My intent is to serve the President, the 
Secretary of Commerce, the talented people who make up NOAA 
today, and our fellow citizens across the nation. As my record 
shows in the past, I will work hard with the good Members of 
this Committee, the Senate and the House in building sound 
programs and building support to enact those programs for the 
betterment of our country.
    Again, thank you very much for your courtesy, Mr. Chairman 
and Members of this Committee.
    [The prepared statement and biographical information of 
Vice Admiral Lautenbacher follow:]

           Prepared Statement of Conrad C. Lautenbacher, Jr.

    Mr. Chairman, Members of the Committee, I am pleased to appear 
before you today regarding my nomination for Under Secretary of 
Commerce for Oceans and Atmosphere for the Department of Commerce. I 
thank the President for nominating me to this position and Secretary of 
Commerce Evans and Deputy Secretary of Commerce Bodman for their 
confidence and support. I am also most grateful for the courtesies 
shown me during my visits with many of the distinguished Members of 
this Committee, and the opportunity to testify here today.
    As most of you know, I have spent forty years of my life in the 
United States Navy, from my days as a Midshipman at the U.S. Naval 
Academy to my final tour on active duty as the Deputy Chief of Naval 
Operations for Resources, Warfare Requirements, and Assessments. As a 
native of Philadelphia, Pennsylvania, I am proud to have received my 
initial appointment to the U.S. Naval Academy from a distinguished 
Member of this great deliberative body, Senator Hugh Scott.
    I can tell you that I know of no prudent Naval force commander who 
has not understood the importance of the combined state of the ocean 
and weather above it as a first priority in planning and executing a 
campaign at sea or in the littorals of the world. I am no exception. 
During my Naval career, I have developed a life long love of the 
oceans, as well as a deep respect for and more than a casual interest 
in the atmosphere in which we live, work, and defend our nation. My 
graduate education at the MS and Ph.D. levels included a strong dose of 
fluid dynamics, and my thesis topic involved an early modeling attempt 
to understand Tsunami run up on islands. I have spent the better part 
of the year since I left active duty either seeking or serving in my 
current capacity as the President of the Consortium for Oceanographic 
Research and Education or CORE.
    As the President of CORE, I have been able to continue my 
association with the oceans and the dedicated people who support and 
perform the science and operational observations that are so critical 
to our future. I also have had the opportunity to advance my 
understanding of the issues currently challenging our nation that 
involve our oceans and their strongly coupled relationship with the 
atmosphere. My service in the Navy and this past year of work with CORE 
have produced a healthy and increasing regard for the importance of the 
National Oceanic and Atmospheric Administration (NOAA) to both the 
current and future quality of life and economic health of this nation.
    I believe this is a very critical time for society in regard to our 
stewardship of the oceans and atmosphere. There are numerous issues of 
national and international importance in climate observation and 
prediction, national security and homeland defense, increased 
understanding and prudent management of the environment, living marine 
resource management, development of new energy sources, maritime 
transportation and safe navigation, and coastal zone management, to 
name a few. I look forward to the opportunity to be a part of the team 
that must confront and work on these challenges. There is no more 
important mission than providing for the sound science and observations 
which will allow the development and enactment of sound public policy 
in each of these critical areas.
    I am a strong believer in intergovernmental cooperation and will 
work to ensure that NOAA is a team player with the other agencies that 
have interests in or jurisdiction over various aspects of the oceans 
and atmosphere. I also believe that the productivity and efficiency of 
any organization depends directly on the people who serve in that 
organization, and I will do all that I can to ensure an opportunity for 
each of the valued employees of NOAA to achieve personal and 
professional satisfaction.
    I am proud to have been nominated to serve in this vitally 
important agency of our government. Should I have the privilege of 
earning your endorsement and the confirmation of the Senate, I will 
work hard to serve the President, the Secretary of Commerce, the 
talented people who make up the NOAA work force and our fellow citizens 
across this nation. The oceans and atmosphere are a sacred trust for 
the health and well-being of every individual. And as I have in the 
past, I intend to work with the distinguished Members and staff of this 
Committee, the Senate and the House in building sound programs and the 
requisite support for their enactment.
    Again, thank you very much for your courtesy and the opportunity to 
appear before you today.
                                 ______
                                 
                      A. BIOGRAPHICAL INFORMATION

    1. Name: Conrad Charles Lautenbacher, Jr.
    2. Position to which nominated: Under Secretary of Commerce for 
Oceans and Atmosphere.
    3. Date of nomination:
    4. Address: (Information not released to the public.) Office: 
Consortium for Oceanographic Research and Education, 1755 Massachusetts 
Ave. NW, Suite 800, Washington, DC 20036-2102.
    5. Date and place of birth: June 26, 1942 in Philadelphia, PA.
    6. Marital status: Married: Susan Elizabeth (Scheihing) 
Lautenbacher.
    7. Names and ages of children: Daughter: Elizabeth Lautenbacher 
Katz (33); Son: Conrad John Lautenbacher lI (31).
    8. Education: 6/65-4/68, Harvard University, Ph.D. 4/68; 10/64-6/
65, Harvard University, MS 5/65; 7/60-6/64, U.S. Naval Academy, BS 6/
64; 2/57-2/60, Central High School, Diploma 1/60.
    9. Employment record: US Navy Service 6/60-9/00; Asst. M Div. 
Officer, USS WASP (CVS-18), Boston, MA, 6/64-10/64; Student, Harvard 
University, Cambridge, MA; 10/64-4/68; Navigator, USS HENRY B. WILSON 
(DDG-7), San Diego, CA, 4/68-1/70; Weapons Officer, USS HENRY B. WILSON 
(DDG-7), San Diego, CA, 1/70-7/71; Cost Analyst, OSD Systems Analysis, 
Washington, DC, 7/71-8/73; Flag Lieutenant, USCINCUSNAVEUR, London, 
GBR, 8/73-5/74; Aide, Vice Chief of Naval Operations, Washington, DC, 
5/74-3/75; Executive Officer, USS BENJAMIN STODDERT (DDG-22), Pearl 
Harbor, HI, 3/75-5/77; Program Analyst, CNO Staff (OP-96), Washington, 
DC, 5/77-5/80; Commanding Officer, USS HEWITT (D-966), San Diego, CA, 
5/80-8/82; Federal Executive Fellow, Brookings Institution, Washington, 
DC, 8/82-9/83; Strategy Analyst, CNO Executive Panel, Washington, DC, 
9/83-6/84; Director, Program Planning, CNO Staff (OP-90), Washington, 
DC, 6/84-8/86; Commanding Officer, Naval Station Norfolk, Norfolk, VA, 
8/86-6/88; Inspector General, US Pacific Fleet, Pearl Harbor, HI, 6/88-
6/90; Commander, Cruiser-Destroyer Group Five, San Diego, CA, 6/90-7/
91; Director (J-8), Joint Staff, Washington, DC, 7/91-2/94; Special 
Assistant, Secretary of the Navy, Washington, DC 2/94-8/94; Commander, 
US Third Fleet, San Diego, CA, 8/94-10/96; Director,: Office of Program 
Appraisal, Washington, DC, 10/96-12/97; Deputy Chief of Naval 
Operations (N-8), Washington, DC, 12/97-9/00; Private Sector 10/00-
Present; Independent Consultant, Self Employed, Fairfax, VA, 10/00-
Present; President/CEO, Consortium for Oceanographic Research & 
Education, Washington, DC, 3/01-Present.
    10. Government experience: Member, Defense Science Board Panel on 
Advanced Lasers 10/00-6/01.
    11. Business relationships: U.S. Naval Institute, Member, Board of 
Control and Editorial Board, 9/92-8/94; United Services Benefit 
Association, Member, Board of Governors 9/92-9/96; United Services 
Benefit Association, Chairman, Board of Governors 9/96-9/99; CEREBRUM, 
Inc. (self-incorporated consulting company), President, 1/01-Present; 
Technology, Strategies & Alliances, Consultant, 10/00-Present; 
Electronic Warfare Associates, Inc., Consultant, 10/00-Present; Systems 
Planning & Analysis Group, Inc., Consultant, 12/00-Present; Symrnetron, 
Inc., Consultant, 1/01-Present; Westinghouse Government Services Corp., 
Consultant, 2101-Present; Northrop Grumman Corp., Consultant 4/01-
Present.
    12. Memberships: U.S Naval Institute, Member 1964-Present; U.S. 
Naval Order, Member 1995-Present; U.S. Naval Order, Board Member, 1998-
1999; Naval Historical Society, Member, 2000-Present; Military Order of 
the World Wars, Member, 1995-1996; AARP, Member, 1992-Present; U.S. 
Naval Academy Alumni Assoc., Member, 1968-Present; Central High School 
Alumni Assoc., Member, 1997-Present; Navy League of the United States, 
Member, 2001-Present.
    13. Political affiliations and activities: List all offices with a 
political party which you have held or any public office for which you 
have been a candidate: None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the past 10 
years. None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political, party, political action committee, or similar 
entity of $500 or more for the past 10 years. None.
    14. Honors and awards: Defense Distinguished Service Medal; 
Distinguished Service Medal with two Gold Stars in lieu of subsequent 
awards; Legion of Merit with three Gold Stars in lieu of subsequent 
awards; Meritorious Service Medal with two Gold stars in lieu of 
subsequent awards; Navy Commendation Medal; Navy Achievement Medal with 
Combat ``V''; Combat Action Ribbon; Navy Unit Commendation; Meritorious 
Unit Commendation with one Star; Navy Expeditionary Medal; National 
Defense Service Medal with one Bronze Star; Armed Forces Expeditionary 
Medal; Vietnam Service Medal with three Bronze Stars; Southwest Asia 
Service Medal with Three Bronze Stars; Humanitarian Service Medal; Sea 
Services Ribbon with two Bronze Stars; Republic of Vietnam Gallantry 
Cross Unit Citation; Kuwait Liberation Medal (Kuwait); Kuwait 
Liberation Medal (Saudi Arabia); Federal Executive Fellow, Brookings 
Institution, 8/82-9/83; Central High School Hall of Fame 
(Philadelphia).
    15. Published writings: Magic Moments, Boys Life Magazine, May 
1959; Magic Moments, above article reprinted in One Nation Under God, 
ed. Robert Gordon Smith, Wilfred Funk, Inc. New York, NY 1961; 
Collision of Fluid Droplets, Harvard Technical Report No. 2, National 
Sciences Foundation Grant GK-165, Cambridge, MA, May 1966; Gravity Wave 
Refraction by Islands, Thesis, Harvard University, December 1967, 
Cambridge, MA; The Presidents Own, Marine Corps Gazette, November 1968; 
Gravity Wave Refraction by Islands, Journal of Fluid Mechanics, 
Cambridge, UK, May 1970; Earth Day Should be Ocean Day, CORE Press 
Release, reprinted in various Ocean Science organizational newsletters, 
April 2001.
    16. Speeches: Public Testimony to the Senate Appropriations 
Subcommittee on Defense supporting Basic Science, May 2001; Public 
Testimony to a combined three subcommittee House hearing on Ocean 
Exploration and Observing, July 12, 2001.
    17. Selection: (a) Do you, know why you were chosen for this 
nomination by the President? Yes.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment? 40 years 
experience in the US Navy on the oceans and in the atmosphere of our 
world; Ph.D. in Applied Mathematics, Harvard University; 26 years of 
management and leadership experience; 16 years of budget and fiscal 
planning experience in Washington DC; President/CEO of the primary 
Ocean Science support organization in Washington.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate? Yes.
    2. Do you have, any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain. No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization? No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers. Consortium for Oceanographic Research and 
Education (CORE)--retain TIAA-CREF 403b--no contributions beyond 
termination of employment; CEREBRUM, Inc.--SEP-IRA--Self-incorporated 
company to be inactive during government service.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated. Not aware of any.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent; that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated. Not aware of any.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy. As Deputy Chief 
of Naval Operations, testified numerous times in support of the Defense 
Authorization and Appropriations Bills. Numerous conversations with 
House and Senate staffers as President of CORE, testified twice in 
support of Basic Ocean Science Research. Numerous conversations with 
House and Senate Members and staffers.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.) I will 
report the situation to my immediate superior and recuse myself from 
any further deliberations on the matter at issue.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position? Yes.

                            D. LEGAL MATTERS

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a compliant to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any federal, state, or other law enforcement authority for violation of 
any federal, state, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any-criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. Not aware of any additional 
information.

                     E. RELATIONSHIP WITH COMMITTEE

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. All 
regulations will be subject to a general counsel review and modified as 
necessary to ensure compliance with the intent and spirit of the laws 
passed by Congress.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. NOAA is the federal agency 
charged with numerous critical tasks in regard to ocean and atmospheric 
science and observation. Significant roles include: weather and climate 
prediction, fisheries management and regulation, ocean and atmosphere 
environmental monitoring, public health and safety monitoring, 
navigation and safety of marine transportation, administering marine 
sanctuaries and coastal zone management initiatives. In each of these 
areas, NOAA has been and must continue to lead as well as help to 
coordinate and integrate across all other federal, state and local 
entities that are involved in activities that involve the oceans and 
atmosphere.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

                  F. GENERAL QUALIFICATIONS AND VIEWS

    1. How have your previous professional experience and education 
qualified you for the position for which you have been nominated? As a 
career Naval Officer, I have spent 40 years either operating in or on, 
or engaged in study about our atmosphere and oceans. Advance education 
includes a Ph.D. in Applied Mathematics from Harvard University with a 
thesis in an oceanographic topic, Tsunami modeling. I have spent a 
lifetime studying and using ocean and atmospheric condition 
predictions. Weather and ocean conditions play a critical role in 
military operations and as such they are a prime concern of every 
knowledgeable field commander as well as resource manager. I have been 
in charge of organizations at all levels and have a proven success 
record in the leadership of large organizations including thousands of 
personnel. I have been a successful resource manager at all levels from 
entry level to the senior ranking position in the Navy. I believe I 
have a combination of understanding of the science and observation of 
our oceans and atmosphere, and well as the leadership and management 
ability to guide successfully the large and diverse organization that 
is NOAA.
    2. Why do you wish to serve in the position for which you have been 
nominated? Two reasons: First, I have been asked to serve by my 
President. I have answered every call in the last forty years and I 
don't intend to stop now. Second, I believe this is a very critical 
time for society in regard to our stewardship of the oceans and 
atmosphere. There are numerous issues of national and international 
importance in climate observation and prediction, increased 
understanding and prudent management of the environment, living marine 
resource management, development of new energy sources, and coastal 
zone management, to name a few. I want to be a part of the team that 
must confront and work on these challenges.
    3. What goals have you established for your first 2 years in this 
position, if confirmed? It would be presumptuous of me to dictate a 2-
year program for NOAA before I have had an opportunity to review the 
organization and the current status of their programs in detail. 
However, in general, I intend to review the current status; make 
organizational adjustments as necessary and develop priorities for the 
future. This initial review will include the areas listed above, as 
well as others that come to my attention in the future. NOAA has a 
solid reputation for service and dedication. I intend to maintain and 
build that reputation for the future. In all previous assignments, I 
have always been dedicated to improving personnel morale and job 
satisfaction, and would continue to do so as the NOAA Administrator. I 
intend to work hard, not only within NOAA to develop a coherent program 
and sound organization, but also to apply the same effort in 
integrating and coordinating activities across all other agencies that 
involve the oceans and atmosphere.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain these skills? I have never personally worked in the 
organization. I intend to listen carefully to those who have and to 
those who have been successful in this area in the past. I will build 
teams that include members with the requisite knowledge to be 
successful.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. I 
am a strong supporter of the Constitution and our form of government. I 
believe in a balance between federal activism and states' rights. 
Government needs to be as efficient as possible and intrusive only to 
the point of providing for national security, integrity of the currency 
and commerce, law and order, public health, and the safety of all its 
citizens. The strength of our private sector and our free enterprise 
system needs to be brought to bear wherever and whenever it makes 
sense. Tasks that can be accomplished by the private sector more 
efficiently and fairly should be devolved or not undertaken by 
government in the first place. Government programs should be terminated 
when they are no longer needed, when they are no longer affordable 
given funding and other priorities, or when the private sector is 
capable of assuming the task at greater efficiency and fairness.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. NOAA is the 
federal agency charged with numerous critical tasks in regard to ocean 
and atmospheric science and observation. Significant roles include: 
weather and climate prediction, fisheries management and regulation, 
environmental science improvement, public health and safety monitoring, 
navigation and safety of marine transportation, marine sanctuaries 
administration and coastal zone management. In each of these areas, 
NOAA has been a leader and must continue to lead as well as help to 
coordinate and integrate across all other federal, state and local 
entities that are involved in activities that involve the oceans and 
atmosphere.
    7. In reference to question number 6, what forces are likely to 
result in changes to the mission of this agency over the coming 5 
years? Critical national issues relating to climate prediction, 
environmental monitoring, the search for new energy sources, public 
health and safety, living marine resource management and Coastal Zone 
management will be important factors in shaping NOAA programs. However, 
I believe that the NOAA mission is sufficiently broad to cover all of 
the above; therefore it is unlikely that the mission itself will change 
much. In the near future, the deliberations and final report of the 
Commission on Ocean Policy are likely to be the most significant forces 
for change in the NOAA mission.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why? At this point, I don't see any forces that 
will prevent accomplishment of the NOAA mission with the exception of 
inadequate funding (not unique to NOAA). The top three challenges 
include developing and building a climate monitoring system, improving 
fisheries and marine living resource management, and enabling prudent 
use of the environment. I believe these are international as well as 
national issues that will significantly affect life on this planet as 
we know it for the next one hundred years at least. Public policies in 
these areas need to be formulated on the basis of the best science and 
observational techniques that we can devise and afford.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years? I believe that the agency has accomplished 
its mission over the past several years; to the extent that it could do 
better, funding plays a significant role.
    10. Who are the stakeholders in the work of this agency? Every 
citizen in this great nation! (Nothing moves without a good weather 
forecast). Others include the ocean and atmospheric science community, 
environmental monitoring and regulatory agencies, the international 
ocean and atmospheric science community with the State Department, U.N. 
and ad hoc multinational committees as agents.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10? NOAA 
needs to provide the best services possible for the least cost to all 
stakeholders. I intend to review continuously the quality of our 
products, customer satisfaction with our products, and internal 
efficiencies in building those products. I intend to be proactive with 
the other agencies and agents as listed above to ensure that NOAA is 
meeting their needs to the maximum extent possible.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector. (a) What do 
you believe are your responsibilities, if confirmed, to ensure that 
your agency has proper management and accounting controls? I have 
worked previously in government under the Chief Financial Officers Act 
and will review NOAA organization and current procedures with the goal 
to improve efficiency and build sound financial management practices 
similar to those in the private sector.
    (b) What experience do you have in managing a large organization? 
As a career Naval Officer, I have been in charge of numerous 
organizations, both small and large. Examples of large organizations 
include managing Naval Station Norfolk, the world's largest such 
installation, with two thousand direct reporting personnel and a $50M 
annual budget supporting a force of 100,000 personnel and 113 Navy 
ships. I have been in charge of the budget and planning for the U.S. 
Pacific Fleet with a budget of $5B and responsibility for maintaining 
and operating one-half of the United States Navy. I have been Commander 
of the U.S. Third Fleet, directly in charge of operations typically 
including at least 16,000 personnel. I have been the Navy's chief 
resource manager in charge developing the Navy's budget and 5 year 
future plan, with 14 Flag Officers and approximately 500 other 
professional staff officers as direct reporters.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals. (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving these goals. Identifying performance goals and the 
accompanying metrics are critical to determining the efficiency of the 
organization, measuring progress toward goals, cost-benefit analysis, 
and determining organizational priorities. Effective planning cannot be 
accomplished without an identification of goals and meaningful progress 
reports.
    (b) What steps should Congress consider taking when an agency, 
fails to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? The first step would be to determine in specific 
detail the reason(s) for failure. Other steps would follow depending on 
the outcome, of step one. I would not rule out consideration of the 
other mentioned remedies depending on the cause(s) of the failure.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? Honesty and integrity in 
dealing with the public, the Executive and Congress. Development of 
organizational priorities and goals that are consistent with the 
mission. Development and execution of a budget designed to achieve 
those goals. Reasoned public advocacy of the organization's goals and 
priorities. Building a qualified and effective work force.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in the 
intrinsic worth and dignity of every human being and that each person 
has skills that need to be discovered, nurtured and valued within the 
organization. Supervisory/employee relationships work best when the 
supervisor is a leader with proven leadership skills. Leadership 
includes developing and publicizing organizational goals and 
objectives, setting a positive example in working toward those goals, 
and maintaining a courteous and friendly working relationship with all 
employees. I believe in setting high standards. I believe that 
encouragement and praise for the good things that are being 
accomplished in the organization are far better motivating factors than 
disparaging comments and sanctions for poor performance.
    I am not aware of any employee complaints against me.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. I have always worked hard to 
maintain an open and honest working relationship with Members of 
Congress and congressional staffers in my previous positions in the 
Navy and as President of CORE. I intend to continue to be proactive in 
dealing with issues under my cognizance, responsive to requests for 
information, receptive to comments and ideas; and dedicated to 
executing the law of the land. I have had the honor and pleasure in the 
past of working with the House and Senate Armed Service Committees, the 
House and Senate Appropriations Defense Subcommittees, the Senate 
Commerce, Science and Transportation Committee, the House Science 
Committee, and the House Resources Committee (including appropriate 
subcommittees).
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. I will work with the Inspector General and comply 
with the regulations that govern his or her position within the 
Commerce Department. I will be fully supportive of the Inspector 
General's mission in matters that fall within my purview.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. I will 
work hard to maintain the kind of working relationship with this 
Committee that will allow me to understand both the spirit and the 
intent of Congress in regard to all potential and enacted regulations. 
Additionally, within the agency, all regulations will be subject to a 
general counsel review and modified as necessary to ensure compliance 
with the intent and spirit of the laws passed by Congress.
    18. In the areas under the department/agency's jurisdiction, what 
legislative actions(s) should Congress consider as priorities? Please 
state your personal views. It would be premature as this point to lay 
out a detailed legislative priority list. In general, however, I 
believe it is most important at this point in the budget cycle to 
complete action on the pending Appropriations Bills that will affect my 
agency. Should I be confirmed, I look forward to providing any 
information that will help in progress toward this end. Additionally, I 
hope that I may have the opportunity to address this question again 
after I completing an internal agency review.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation. 
Yes, I certainly support the concept as it may apply to my agency. My 
objective would be to complete an internal review of agency 
organization and programs within 3 months, of assuming leadership and 
within 3 months of that date develop and publish priorities and plans 
to implement.

    Senator Wyden. Admiral Lautenbacher, according to the 
information that you have given the Committee you do not appear 
to have a tremendous amount of experience regarding fisheries. 
I guess it is fair to say that I and other members of the 
Northwest Congressional delegation will be happy to provide the 
tutorials.
    Admiral Lautenbacher. Yes, sir.
    Senator Wyden. We can sort of start this afternoon. The 
essence of this is there are too many fishers catching too few 
fish. It is critically important that steps be taken to make 
the industry sustainable, and clearly to deal with the 
Northwest groundfish fishery we are going to have action for 
the Administration and the total support of your office.
    Let me ask you about some specifics now. I have introduced 
S. 973, which is the Pacific Groundfish Preservation Act. The 
legislation offers a buyback program funded one-half by federal 
appropriation and one-half by the industry through a federal 
loan. This would decrease the number of fishers. In the past 
there have been buyouts to address overcapitalization.
    I think I would like to start by asking you what 
alternatives would you propose to voluntarily decrease the 
number of fishers?
    Admiral Lautenbacher. Senator, I have to agree with you 
that I am not experienced in the management of fisheries and 
that I am learning in this area as well. But to date what I 
have learned so far is that there are a number of opportunities 
that we have to combat or to deal with the overfishing. I think 
some of the proposals that have been made for buybacks, either 
government-funded or by loans, are very interesting.
    I know that your support on this bill and interest on this 
issue are very much appreciated by the Administration and by 
NOAA. I am delighted to have on the team that has been chosen 
already to work in NOAA, Dr. Bill Hogarth, who as you mentioned 
is very experienced in this area, and Bob Lawn, who is the 
Regional Director in the Northwest and I understand is very 
knowledgeable about it.
    I think we need to work together to build a solution that 
will be protective of our environment as well as ensuring that 
the economics of fishing maintains its viability.
    Senator Wyden. Do you think that there needs to be a faster 
process to get disaster money out to communities? The reason I 
am asking this question is that the West Coast groundfish 
fishery was declared a disaster in January of 2000 and it took 
nearly 12 months after funding was appropriated. Frankly, at 
that point I had a hearing on the coast in Oregon and it was 
clear it was not ever going to get out. I mean, the money was 
just going to be stuck in the pipes somewhere.
    We basically said, look, we are going to bring folks there 
constantly until the money gets out, and finally it did.
    In our legislation we require NMFS to report to Congress on 
how they could speed up the distribution of disaster money. I 
would be interested in whether you think there does need to be 
a faster process to get it out.
    Admiral Lautenbacher. Senator, I am not aware of the 
details of the process. I would have to say that that certainly 
sounds excessive to me and I will look into it. I think it is 
important that emergency assistance should be received by the 
people who deserve to have it as soon as possible.
    Senator Wyden. Now, at present the IRS taxes this money as 
regular income and at the same time puts families off the food 
assistance rolls. Does that seem appropriate to you?
    Admiral Lautenbacher. I am not a tax lawyer. I am not 
really familiar with the entire IRS code. But that does seem a 
bit harsh, yes, sir.
    Senator Wyden. Fishermen also have to shovel large 
quantities of fish overboard because of regulatory or market 
restrictions on what they can bring to the dock. I have been 
working for years to get NOAA to create a program so we would 
not have the disgrace of having all of these needy people in 
the United States and people chucking fish overboard. Suffice 
it to say the previous Administration said they would do it and 
they did not. I think it is very unfortunate and I would be 
interested in knowing what ideas you have for eliminating this, 
the waste of this resource.
    Admiral Lautenbacher. I will have to look into the rules 
and regulations that have created that situation, Senator. It 
sounds to me like we need to work on that and I would be happy 
to work with you to try to solve that situation.
    Senator Wyden. Have you seen some of these pictures? I 
mean, there are pictures repeatedly in major publications all 
across this country of people throwing fish overboard. Are you 
familiar with that?
    Admiral Lautenbacher. I have not seen those pictures, no, 
sir. I will look.
    Senator Wyden. I think we will supply them to you.
    Admiral Lautenbacher. Thank you.
    Senator Wyden. It is a disgrace.
    Admiral Lautenbacher. Yes, sir.
    Senator Wyden. It is a disgrace that there is not a system 
that gets this resource to needy people while at the same time 
not leading to overfishing and the like, which presumably has 
been the argument. I hope that you will do better than your 
predecessor, because your predecessor made a commitment.
    This is something I feel very strongly about. This is one 
of the most flagrant examples of waste that I have seen in my 
years in public service. You are throwing this report overboard 
when you have needy people, when you have all the economic 
hurting communities across this country. I just think it is a 
moral blot on our country and I hope you will take it on. We 
are going to supply you with the pictures.
    Admiral Lautenbacher. I understand, sir. I will take it on.
    Senator Wyden. Tell us what process you think you would 
like to pursue to ensure better cooperation between the 
agencies and fishermen and processors in order to address the 
sustainability question and maintain fishing communities.
    Admiral Lautenbacher. Again, I would like to address that 
after I have had a chance to look more at the way the agency 
works. But, in general, I would say that what I see as a 
private citizen is, first of all, controversy over the basic 
science and the pieces that we put together to make, build the 
criteria on which we judge ourselves.
    I see contention between the various components and 
advocates of various parts of our society, working on data 
which generally is inadequate or not fully thought out. I think 
that we need a process that builds the proper basic knowledge 
of science and knowledge of the fishing environment to the 
point where people at least agree on the basic facts. At that 
point, I think we need to have a balance in the constituencies 
that are represented in this important area of our country, 
both economically and from quality of life.
    Senator Wyden. NMFS has been conducting stock assessment 
surveys in the West Coast groundfish fishery every 3 years 
instead of every year. So at this point there is not adequate 
data on 83 of the species that comprise the groundfish fishery. 
The law states that a precautionary management approach is 
required to conserve the stocks that we have left. How would 
you go about complying with that law and making sure that there 
are resources to conduct scientifically valid assessments on an 
annual basis?
    Admiral Lautenbacher. I would like to have an opportunity 
to answer that one for the record. I am not sure that I can 
give you an answer to that question at this point. I do not 
have enough of the details of how the agency does that work or 
the resources that are involved. I will work hard to try to 
improve the procedures and provide the proper resources.
    Senator Wyden. I think I am getting the drift with these 
questions. Let me leave it this way. This is something I feel 
very strongly about and I think it is important that when you 
are before this Committee you can talk at least to some degree 
specifically about matters that are important to my 
constituents. This is something that has been in front of the 
agency for a long time and I hope that you get up to speed on 
this.
    I am going to give you some additional questions in writing 
on the West Coast groundfish fishery. But this is something 
that I feel very strongly about and I think we have got to get 
your people working on this and pursuing it vigorously. We will 
supply the rest of the questions to you on this matter for the 
record.
    Let me ask you about one other issue that is important to 
my constituents and then we will turn to some other matters. 
NOAA is responsible for making forecasts on water levels in an 
important part of my state, in the Klamath Basin. Each year the 
forecast comes out on April 1st, but the farmers have to make 
their decisions before April 1st. Would you be willing to work 
with me, and I know my colleague Senator Smith feels very 
strongly about this as well, to look into a way to help the 
farmers get the information they need earlier?
    Admiral Lautenbacher. Yes, sir, I would. My background on 
this tells me that some of that information is available and we 
should be able to make it available to you much earlier. We 
will work with you on that, yes, sir.
    Senator Wyden. Let me turn now to some broader issues. 
Ongoing oceanographic research is critical to the nation's 
understanding of the physical world. We know more about the 
surface of the moon probably than we do about the oceans. Where 
does ocean exploration lie in your list of priorities?
    Admiral Lautenbacher. I have testified before that I 
consider it to be very important. I view ocean observing and 
ocean exploration as kind of the two bookends of the knowledge 
set that we need to fill up to put on our bookshelf of 
knowledge about the oceans. I think there remains much to be 
discovered about the oceans and we need the work at it from 
both ends, both observations and exploration.
    So I am a supporter of the explorations program that has 
been instituted by NOAA.
    Senator Wyden. The country is falling behind other nations 
in aquaculture development. Offshore aquaculture has the 
potential for increasing the amount of domestic fish entering 
the U.S. market, thereby decreasing the deficit, while at the 
same time ensuring that aquaculture goes forward in an 
environmentally sound fashion.
    Would you be willing to explore the expansion of American 
aquaculture?
    Admiral Lautenbacher. Yes, I would be. Personally, I think 
that is an area we need to work in. I think that is the place 
where we are going to have the greatest opportunity to increase 
our economic value of fish and fisheries in the United States.
    Senator Wyden. How would you go about doing it?
    Admiral Lautenbacher. Well, I think we have a lot of issues 
with the way we set these fish farms up and the research that 
has been done on the types of breeding and conditions under 
which they live, in which they can cross-breed with native 
species. We need lots more work in terms of the basic research 
on it and we need the support work that is ongoing right now.
    Senator Wyden. Let me ask you about the NOAA corps and 
fleet. For many years there have been attempts to eliminate the 
NOAA corps, as well as the NOAA fleet, both of which are 
essential in terms of the mapping and charting mission of the 
agency. Under Senator Hollings' leadership, this effort has not 
gone forward. The recent public and scientific success of the 
Ocean Exploration Initiative only underscores the importance of 
preserving and expanding the fleet and corps.
    How would you assess the adequacy of NOAA's aircraft and 
oceanographic fleet to support the current and anticipated 
needs?
    Admiral Lautenbacher. Again, I would like more time to 
assess the requirements, but in general, I believe that the 
NOAA corps is a valuable part of that agency. I believe that we 
need the recapitalize the fleet that NOAA uses, as well as the 
aircraft fleet. These are essential tools in research and basic 
observation of physical phenomenon that we are all interested 
in.
    Senator Wyden. So you are going to actively pursue 
modernizing the NOAA oceanographic fleet?
    Admiral Lautenbacher. I am going to try to do that, yes.
    Senator Wyden. The Navy has purchased many of the ships now 
used by the university fleet. Would you agree that NOAA's naval 
deputy could be helpful in procuring new ocean assets for the 
fleet, like remotely operated vehicles for use by the agency 
and the university community in ocean exploration?
    Admiral Lautenbacher. I think the future is robotics and 
AUVs and remotely operated vehicles. It is an important adjunct 
to the way we do business. At some point it may take the place 
of manned vessels and manned exploration systems. It is 
certainly something that we need to get into and push harder 
than we are doing now.
    Senator Wyden. Now, one other area that a number of the 
Senators on the Committee are interested in is the 
effectiveness of coastal zone management. The statute, the 
Coastal Zone Management Act, is now almost 30 years old. In 
1972, it was certainly a revolutionary approach to go about 
addressing the increasing threats posed to fragile coastal 
areas. Coastal populations, as you know, are growing in many 
areas of the country and the modern pace of development seems 
to have outstripped the nation's ability to protect some of 
these coastal areas.
    With the thirtieth anniversary coming up in 2002, it seems 
like an ideal time to take a close look at coastal zone 
management's effectiveness at the local level. Tell me, if you 
would, how you would pursue a management review of the program 
so as to maximize its potential?
    Admiral Lautenbacher. I agree that some sort of a Coastal 
Management Act is critical. I think that many of our problems 
that we are going to face are going to be in the coastal zone. 
As both you and Senator Stevens have stated, the majority of 
our population, at least 50 percent at this point, the majority 
will be living in the coastal areas. So coastal management will 
become very important.
    I intend to, when I get to NOAA, take a look at the coastal 
management programs as they are set up and review them and see 
what needs to be done.
    Senator Wyden. Any ideas on strengthening and accelerating 
coastal protection efforts at the ground level instead of or 
perhaps in addition to some of the state programmatic grants?
    Admiral Lautenbacher. Well, I am a believer in partnerships 
in this area, so I think that we need to continue to partner 
with the state and local agencies, the federal government. 
There is a definite need for the country to support this. There 
is a definite need for the regions to be able to come in with 
their specific needs and deal with it. So I am a supporter of 
partnerships with the agencies involved in each one of these 
issues.
    Senator Wyden. Well, we are as well. We just want to get 
these ground level efforts.
    Admiral Lautenbacher. Yes, sir.
    Senator Wyden. So often, it just seems that those people 
come to our community meetings and the like and say, nobody is 
talking to us, nobody is aware of us. So if you can make sure 
that the partnership has those people at the table, that is the 
key.
    Admiral Lautenbacher. We will work on that.
    Senator Wyden. I do not have anything to add further. 
Please get up to speed on these West Coast groundfishing 
matters.
    Admiral Lautenbacher. I have gotten a lot smarter in the 
last 10 minutes, sir.
    Senator Wyden. Let me state, just so that the record is 
clear, that Secretary Evans has been extremely helpful. When we 
had to get that groundfish money out where it had just been 
idling for months and months, I think Secretary Evans barely 
got a chance to get to his phone when I called him. He probably 
said to himself, who is this skinny fellow from Oregon. He 
would not have known me from Adam. He got right on it and he 
got that money out. So we are very appreciative of that.
    Mr. Hogarth has been very responsive as well. But we need 
you to really apply yourself at these areas and particularly to 
stop the waste of the resource, get the stock assessments, and 
to help us with an effort to come up with a voluntary program 
that can decrease the number of fishers.
    So you get a pass today because this is all new, but we 
will want you to be an activist on those issues. We are looking 
forward to seeing you confirmed. We have heard very good things 
about you and your expertise.
    Why do we not give you the last word. Anything you would 
like to add further?
    Admiral Lautenbacher. I think I have said it all. Again, I 
want to thank the Members of the Committee for their courtesy 
to me during this period of working through the confirmation 
process. I am a great supporter of this nation and the country 
and the process that we are all engaged in, and I assure you 
that I will work hard to earn your trust and confidence and 
live up to your expectations.
    Thank you very much for your time today, sir.
    Senator Wyden. Very good. The hearing is adjourned.
    [Whereupon, at 3:11 p.m., the hearing was adjourned.]


                            A P P E N D I X

    Responses to Written Questions Submitted by Senator Hollings to 
                    Vice Admiral Conrad Lautenbacher

1. Effectiveness of Coastal Zone Management
    The Coastal Zone Management Act is now almost 30 years old. In 1972 
it was one of the most revolutionary approaches ever taken to address 
the increasing threats development posed to our fragile coastal areas. 
With coastal populations exploding particularly in Southeastern coastal 
states such as South Carolina--the modern pace of development seems to 
have outstripped its ability to protect our coastal areas. The 30th 
Anniversary year, 2002, would be an auspicious time to take a close 
look at the Act's effectiveness at the local level.
    Question 1. How would you pursue a management review of this 
program that could get to the heart of the matter?
    Answer: The Coastal Zone Management Act is up for reauthorization 
and I understand that both Congress and the Administration have 
developed some initial concepts for making the Act and program reviews 
more effective. NOAA is currently working both internally and with 
their partners to develop indicators of coastal management 
effectiveness. If I am confirmed, I will work within the 
Administration, work with the states, and Congress to examine ways for 
addressing more effectively the issues surrounding rapid coastal 
development.
    Question 2. Can you suggest ways we could strengthen and accelerate 
coastal protection efforts at ground level in addition to--or instead 
of--state programmatic assistance grants?
    Answer: As I stated at my confirmation hearing, if I become NOAA 
Administrator, I plan to look closely at all the NOAA coastal programs, 
not just those related to the Coastal Zone Management Act, to determine 
ways that they can be more effective at all levels, including the local 
level, where increasingly more decisions are made on coastal protection 
and development. An important part of this is ensuring that local 
decisionmakers have relevant and accurate information. I believe that 
strong and effective partnerships for providing information, tools, and 
training are one of the most important ways that NOAA can improve 
coastal protection efforts.

2. NOAA Corps and Fleet
    For many years there have been attempts to eliminate the NOAA Corps 
as well as the NOAA Fleet, both of which are the backbone of NOAA's 
crucial mapping and charting mission. We were successful in repelling 
this effort, I am proud to say. The recent public and scientific 
success of the Ocean Exploration initiative only underscores the 
importance of preserving and expanding the fleet and Corps.
    Question 1. How would you assess the adequacy of NOAA's aircraft 
and oceanographic fleet to support current and anticipated programmatic 
needs?
    Answer: I understand that the NOAA Corps and fleet have been doing 
an excellent job in supporting NOAA's programmatic needs. Based on the 
information available to me, the funds provided in the FY2002 
Conference mark for NOAA ship and aircraft operations and maintenance 
and related data collection, coupled with the funds for outsourcing 
will be able to meet all of NOAA's high priority needs for ship and 
aircraft support to NOAA programs in FY2002. I have some concerns about 
the age of NOAA's ships and aircraft, but don't believe I have adequate 
information at this time to provide a good answer to the anticipated 
needs part of the question. Should I be confirmed, I plan to review 
this situation with NOAA personnel and develop plans accordingly.
    Question 2. What are your views on modernization of the NOAA 
oceanographic fleet?
    Answer: The Congress has been very supportive in the past few years 
in providing funds for upgrading and modernizing NOAA's ships, and it 
appears significant progress has been made toward modernizing the 
fleet. As a matter of principle, I believe that fleet modernization 
should be commensurate with customer needs and make the most efficient 
use of available technology. As indicated above, should I be confirmed, 
I intend to review the entire fleet requirements issue as a priority 
matter.
    Question 3. The U.S. Navy has purchased many of the ships now used 
by the University fleet. Don't you agree that NOAA's Naval Deputy could 
be helpful in procuring new ocean assets for the NOAA fleet--like 
Remotely Operated Vehicles--for use by NOAA and the university 
community in Ocean Exploration?
    Answer: The transfer to NOAA of former Navy T-AGOS and YTT class 
ships has led to an effective use of national assets and allowed NOAA 
to meet a variety of program needs. I believe that NOAA's Naval Deputy 
can continue to be helpful in keeping NOAA apprised of future 
opportunities regarding Navy ships and can be helpful in identifying 
other available Navy ocean assets and Navy acquisitions in which NOAA 
might participate.

3. Regulations on Turtle Excluder Devices (TEDS)

    On October 2, 2001 NOAA issued proposed regulations establishing 
new requirements for Southeastern shrimpers to protect endangered sea 
turtles. As you may know, South Carolina shrimpers have been among the 
most cooperative in the nation in working with federal and state 
managers to protect sea turtles during an exhausting series of 
rulemakings in the past 10 years. However, they are increasingly 
frustrated by a ``one size fits all'' approach to regulations that do 
not take into account the special characteristics of the South Carolina 
shrimp fishery--including its conservation achievements.
    Question (a). Vice Admiral Lautenbacher, how would you deal with 
such regional differences in finalizing these regulations? Can we 
depend on you for flexibility in dealing with this situation?
    Question (b). Will you agree to work with me and our South Carolina 
shrimpers to ensure that regulations are sufficiently tailored to 
recognize the effectiveness of conservation measures taken by our 
fleet?
    Answer: While I am not familiar with many of the specific issues 
surrounding TEDs, I do know that they are extremely contentious and 
that measures needed to protect sea turtles could vary between the 
Southeast Atlantic and the Gulf of Mexico. With your support, the South 
Carolina shrimp industry has accomplished many conservation goals and I 
applaud them for those efforts. I understand that NOAA Fisheries has 
extended the comment period for the proposed TED regulations for 45 
days to gather more information. If confirmed, I assure you that I will 
work closely with you and Dr. William Hogarth to ensure that the 
regulations maintain adequate flexibility with respect to TEDs in 
different geographic areas while protecting sea turtles and other 
endangered species.

                               __________

     Responses to Written Questions Submitted by Senator McCain to 
                    Vice Admiral Conrad Lautenbacher

    Question 1. You have mentioned in pre-hearing questions that 
developing and building a national climate monitoring system is one of 
the top three priorities for NOAA. Also, the National Academy of 
Sciences recently recommended the establishment of a national climate 
service which would focus on weather monitoring.
    (a) What are your plans for establishing such a system?
    Answer: If confirmed as the NOAA Administrator, I will work to 
address the recommendations made by the National Academy in several 
National Research Council (NRC) reports. These reports identified 
shortcomings in NOAA's observing systems that were built for purposes 
other than climate monitoring. Such improvements as higher measurement 
accuracy and long term stability are needed to meet climate 
requirements. In addition, coordination among the various observing 
systems operated by NOAA, as well as other federal agencies, is 
required to provide more complete datasets for coupled climate models 
and modeling the Earth's climate system, including ocean, atmosphere 
and land processes. Finally, existing international partnerships must 
be leveraged and expanded in order to meet the global requirements of a 
climate monitoring system.
    (b) How would a national climate service differ from the existing 
National Weather Service?
    Answer: The National Academy study did not explicitly explore a 
formal climate services organizational structure. Rather they made 
``recommendations to enhance the capabilities of existing institutions 
and agencies and build a stronger climate service function within this 
context.'' These recommendations addressed: (1) effective use of the 
nation's weather and climate observation systems; (2) improved 
capabilities for research, technology infusion, modeling and 
prediction; and (3) regional interdisciplinary approaches to climate 
services.
    My understanding is that NOAA's newly established Climate 
Observations and Services Program is already leveraging the existing 
infrastructures and know-how of NWS, NESDIS, and OAR in a way 
consistent with the Academy's vision. The study emphasized a user-
centric service with developing regional activities, attributes which 
are already part of NOAA's virtual climate service. Effective national 
climate services can only be delivered through the pooled talents of 
not only the NOAA components, but also other federal, state, local, and 
private partners. Should I be confirmed I intend to review the current 
situation in greater depth and make changes as warranted.

    Question 2. In the past, many large-scale science projects were 
presented to Congress with cost estimates that did not reflect the 
total project costs. Will you ensure that total life cycle costs are 
presented when requesting Congressional approval of these projects?
    Answer: Senator McCain, it is my understanding that NOAA has 
restructured its planning and budget process which should assist in 
resolving issues of total life cycle costs for large-scale science 
projects. Once confirmed, I plan to review NOAA's planning and 
budgeting process and make every effort to ensure that your concerns of 
total life cycle costs are addressed. I am a firm believer in knowing 
all the costs before making a decision.

    Question 3. How critical is international collaboration for 
scientific research to the overall success of the U.S. investments in 
this area?
    Answer: Establishing international partnerships for large-scale 
research programs and the exchange of methodology and data is crucial 
for producing state-of-the-science assessments of earth systems, 
developing new predictive tools and capabilities, and assisting 
policymakers and resource managers in their decisions. NOAA has the 
tools, capabilities and experience to provide leadership for these 
emerging and exciting challenges. If confirmed, I will continue to 
pursue cooperative efforts to achieve these goals. The oceans and 
atmosphere are global resources and ultimately it will take global 
agreements to safeguard these precious assets for the future of our 
nation as well as the world.

    Question 4. The President has asked the Secretary of Commerce, 
working with other agencies, to set priorities for additional 
investments in climate change research, review such investments, and to 
provide coordination amongst federal agencies. What do you see as the 
role of the NOAA Administrator in this process? Do you feel this effort 
may duplicate some of the existing work at the U.S. Global Climate 
Change Research Program (USGCRP)?
    Answer: The Secretary of Commerce asked Dr. David Evans, Assistant 
Administrator for NOAA Research, to develop a Climate Change Research 
Initiative in collaboration with the USGCRP and federal agencies that 
participate in climate change research. As NOAA Administrator, I would 
work to develop and implement this initiative. Since the USGCRP 
agencies and climate scientists are developing the priorities and 
plans, it should be possible to ensure that any additions or changes 
will complement and enhance the existing program rather than compete 
with or duplicate it. I will work to ensure that these programs are 
mutually supporting and non-duplicative.

    Question 5. Do you feel that changes are necessary to strengthen 
the role of the U.S. Global Climate Change Research Program?
    Answer: USGCRP has had many successes over the past decade, and has 
provided the scientific basis for El Nino forecasts and the Montreal 
Ozone Protocol. However, the program has been criticized by the 
National Academy of Sciences for its inability to focus resources on 
priority areas. If confirmed, I would be pleased to work with you to 
explore ways to improve and strengthen this important program.
    Question 6. In recent testimony before the Commerce Committee, Dr. 
John Marburger, the President's Science Advisor, highlighted the need 
for more diversity at all ranks of the science and engineering 
workforce. Do you feel that this need exists at NOAA and if so, what 
are your specific plans to address this problem?
    Answer: A diverse workforce is a necessity firmly grounded in 
today's global realities. I will work with NOAA senior managers to help 
ensure the agency serves as a model for a talented, dedicated and 
effective workforce that reflects the nation's diversity in the 21st 
Century. I believe that NOAA should strive to foster an open and 
challenging work environment which enables employees to reach their 
full potential. Achieving these objectives could require new ways of 
thinking and doing business throughout NOAA.
    I understand that NOAA has initiated a new program to expand and 
strengthen its partnerships with Minority Serving Institutions. I look 
forward to building collaborations between the Minority Serving 
Institution community and NOAA that can provide opportunities to pursue 
research and educational programs in atmospheric, environmental, and 
oceanic sciences.
    Question 7. Numerous GAO reports have highlighted the need for 
agencies to expend more resources on effective training and 
professional development programs to better equip federal employees for 
the workplaces of the future. Based upon your experience, what priority 
would you place on workplace development, and how would you emphasize 
continuous learning in your agency?
    Answer: Workplace development and continuous learning are extremely 
important to any organization. The amount of knowledge and breadth of 
skills needed by employees is rapidly growing and changing. In its 
simplest terms, workforce planning and development is about ensuring 
the organization has the right people, with the skills, in the right 
jobs, at the right time. Such vision will depend on analysis of the 
organization's work as well as a commitment of resources to achieve 
this goal. I understand that NOAA is considering ways to expand its 
efforts, and continues to engage in many initiatives to maximize the 
capabilities of its current workforce and to educate its employees 
about NOAA's programs and our environment. Should I be confirmed, I 
look forward to joining in these important efforts.
    Question 8. One major program under your jurisdiction is the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS). This program is funded through both the Department of 
Commerce and Department of Defense. Could you please discuss the 
importance of the Department of Defense's contribution to the NOAA part 
of the program and the program overall?
    Answer: The joint National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) will provide an improved and cost effective 
operational satellite system that will satisfy critical civil and 
national security requirements for space-based, remotely sensed 
environmental data. The first NPOESS satellite is required in 2008 to 
begin replacing the current series of NOAA's Polar-orbiting Operational 
Environmental Satellite (POES) and the Department of Defense (DoD) 
Defense Meteorological Satellite Program (DMSP) spacecraft. Upgrading 
and converging NOAA and DoD satellites into a single program will 
improve national capabilities and save an estimated $1.8 billion over 
the life cycle of the program.
    The Department of Commerce (DOC), DoD, and NASA contribute 
resources to the NPOESS program. DOC has the lead for the converged 
system and satellite operations, while DoD has lead responsibility for 
system acquisition. NASA facilitates development of new technologies.
    Because DOC and DoD provide equal financing, long-term funding 
stability by both departments is essential for NPOESS to meet the 2008 
need date and avoid an operational gap in critical weather and 
environmental satellites.
    The combined contributions of DOC and DoD are absolutely essential 
to modernize sensor payload technologies and satellite data processing 
systems to be commensurate with future computer, weather prediction, 
and environmental modeling capabilities. It is vital that both DOC and 
DoD maintain their interest and funding support as currently 
envisioned.
    Question 9. Over the past few years, there has been some 
controversy about the role of the National Weather Service as it 
relates to commercial providers of weather forecasting information. 
Could you please explain your thoughts on what weather services should 
be provided by the National Weather Service, and which should be 
provided by private forecasters.
    Answer: The roles of the NWS and private sector have been debated 
for some time. In framing this discussion, we should all recognize the 
value and need for an effective partnership between government and 
private sector which meets America's needs for weather information. 
Taxpayer-funded information, including forecasts and warnings issued by 
the NWS to protect life and property, is critical to our citizens. NWS 
also provides a national weather information database and 
infrastructure used by public and the private sector. In turn, 
commercial firms add value by tailoring the data for specific users in 
weather sensitive industries. NOAA and NWS use all feasible means to 
disseminate this valuable taxpayer-funded information to all who need 
it. In summary, NOAA and NWS cannot fulfill their mission to protect 
lives and property, and to enhance the national economy without the 
private sector, and the private sector cannot provide specialized 
services for business decisionmaking without NOAA and NWS.
    NOAA has commissioned the National Academy of Sciences' National 
Research Council to conduct a more in-depth study of the respective 
roles of the government, the private sector and academia in providing 
weather and climate information to the nation in the Internet age. 
Considering the importance of weather and climate information to our 
country and the partnership which already exists between NOAA and the 
private sector, I believe any changes in roles should be examined 
carefully in a forum open to the many interests affected. If confirmed, 
I will work with you to examine the results of the NRC study when it is 
completed and to consider any needed changes to the existing 
partnership arrangements.
    Question 10. What role do you see NOAA playing in Homeland defense?
    Answer: I understand that NOAA is currently in the process of 
organizing an inventory of its broad array of national responsibilities 
related to the September 11th events and Homeland Security. If 
confirmed, I will first work to ensure that existing programs and 
resources are well prepared and positioned to support Homeland Security 
in the most expedient manner. In response to September 11, NOAA quickly 
deployed a wide range of capabilities such as high accuracy geodetic 
positioning, nautical charts, law enforcement, and specialized weather 
forecasts. NOAA is also identifying what it can do to prepare better 
for any future incidents. I understand that as one of the first 
priority issues, NOAA is identifying possible weaknesses in its own 
security and possible threats to NOAA infrastructures (i.e., single 
points of failure) including data networks, supercomputers, and 
intranet/internet infrastructure. It is critical that NOAA have 
continuity of operations to ensure that essential NOAA products and 
services will continue to be produced in the wake of a catastrophe. If 
confirmed, I will also ascertain what enhancements might be necessary 
with additional resources and over a longer timeframe. Some preliminary 
items include developing better water and atmospheric models that would 
give information regarding dispersal of a variety of materials 
including biological and chemical agents. They also include enhancing a 
number of products and services including satellite data; electronic 
navigational charts to support the early implementation of Coast 
Guard's Automatic Information System; preliminary talks with the Navy 
to cooperate on harbor, traffic lane and approaches; hydrographic 
surveys for comprehensive baseline data of U.S. ports to assist in 
obstruction detection; and the Computer-Aided Management of Emergency 
Operations (CAMEO) that EPA and NOAA jointly designed to assist 
emergency responders in preparing for and responding to chemical 
releases. Also of great promise are current and future observing 
systems that can produce early warning information of unwanted 
intrusion into and on U.S. sovereign territory as well as producing 
data of vital use in weather and climate forecasting, environmental 
monitoring, and safe navigation, to name just a few.
    Question 11. How important is the weather data provided by the 
commercial sector to the overall weather data and NOAA's weather 
prediction capability?
    Answer: Today, most of the nation's observational infrastructure 
for weather, water and climate prediction is taxpayer-funded. This 
includes environmental satellites, advanced doppler radars, automated 
surface observation systems, marine data buoys, cooperative observer 
networks, and upper air observations networks.
    However, weather data provided by the commercial sector does play a 
key role in NOAA weather prediction capability. For example, NOAA 
receives surface observations from instruments maintained by public 
utilities, agribusiness interests, and the offshore oil industry; 
observations from weather instruments on commercial airliners and 
ships; and lightning data under contract from a private company which 
maintains a national system of lightning sensors. In addition, NOAA's 
weather prediction capability depends on global cooperation to share 
information with governments of other nations within the framework of 
the United Nations' World Meteorological Organization.
    Question 12. What improvements do you see as necessary to improve 
upon weather forecasting?
    Answer: As you are aware, the NWS recently completed a multi-year 
$4.5 billion modernization and associated restructuring which resulted 
in significant improvements in weather services to the nation. To meet 
the growing demands of customers, partners, and constituents, NOAA must 
build on the success of the NWS modernization and continue to enhance 
its forecast and warning capabilities by making wise investments in 
people and technology. Future improvements in weather services will 
require continued advances in observing systems both on land and at 
sea, continued investments in technology infusion, improvements in 
numerical weather prediction models and supercomputing technology, and 
improvements in weather forecasting techniques. NOAA must also continue 
improvements in communication and dissemination systems to ensure 
timely delivery of products.
    NOAA must also keep pace with changing science and technological 
advances and continue strong investments in research and development. 
NOAA scientists and their university partners must continue research 
activities to develop new forecasting techniques and technologies. NOAA 
must continue to leverage other federal research programs and continue 
to sponsor critical basic research at universities and colleges across 
the country. More importantly, NOAA must continue to invest in its 
people, attracting and retaining the best and brightest forecasters and 
researchers to sustain and improve upon weather forecasting services.

                               __________
     Responses to Written Questions Submitted by Senator Kerry to 
                    Vice Admiral Conrad Lautenbacher
    Question 1. The need to preserve and protect our valuable fisheries 
resources cannot be overemphasized, however the need to preserve marine 
biodiversity is a goal not so easily understood by the general public 
and coastal communities.
    --What are your views on the need for Marine Protected Areas 
(MPAs)?
    --What role should NOAA play in establishing MPAs?
    --What if anything would you do to ensure that preserving marine 
biodiversity becomes a goal of NOAA when establishing MPAs?
    Answer: Just as there are many factors that affect marine 
biodiversity, there are many methods of preserving and managing it. 
Marine Protected Areas are one of the important tools that agencies at 
all levels can use to preserve biodiversity to support environmental 
and economic activities in our marine environment. NOAA's role, as the 
nation's ocean agency, is to provide the science and tools for our 
local and state partners to determine where and what type of marine 
protected areas are needed to achieve local and state goals. NOAA can 
use its existing authorities, such as the Magnuson-Stevens Fishery 
Conservation and Management Act and the National Marine Sanctuary Act, 
to help conserve our nation's valuable marine resources and maintain 
biodiversity.
    Question 2. There is little question that the United States has too 
many fishermen chasing too few fish. As Governor of Texas, President 
Bush supported buyouts of fishermen in the shrimp and crab fisheries. I 
firmly believe we must reduce capacity in our fisheries so that we can 
limit the amount of economic pain experienced by our coastal 
communities each time a particular stock crashes.
    --Do you support buyouts of fishermen that permanently remove 
capacity and allow fishermen to retire with dignity?
    Answer: I understand that the issue of overcapacity in our nation's 
commercial fisheries is very serious, and has affected your 
constituents who participate in the Northwest Atlantic groundfish 
fishery. The United States has moved from a period of subsidizing 
domestic fishing fleets to a new era of rebuilding depleted fisheries. 
In some cases, buyout programs can help reduce capacity in over-crowded 
fisheries. If confirmed, I will work through NOAA Fisheries to arrive 
at a solution that will treat U.S. fishermen in a fair and respectful 
manner.
    Question 3. As you may know, Congress has strongly opposed the 
resumption of commercial whaling and has passed several resolutions in 
the past calling on the President to do everything he can to ensure 
that Japan and other whaling nations cease whaling operations. Under 
the ESA and MMPA, NOAA is charged with protecting whales and has 
represented the U.S. at the International Whaling Commission (IWC). In 
the early days of the Bush Administration, a spokesman for the 
Department of State offered that the Administration would continue the 
policies of previous Administrations in terms of opposing commercial 
whaling.
    I would appreciate your assurances that you and your agency are 
committed to protecting the world's whale populations and will continue 
to do everything possible to end Japan's unauthorized scientific 
whaling and oppose all attempts to resume commercial whaling.
    Answer: The Bush Administration continues to oppose both commercial 
whaling and the lethal taking of whales for research purposes. As 
recently as November 9, 2001, the U.S. Department of State issued a 
press release opposing the research whaling operations of five Japanese 
vessels in Antarctic waters. As part of the overall Administration 
effort, NOAA will continue to protect whales under both the Endangered 
Species Act and the Marine Mammal Protection Act and will continue to 
represent the United States at the IWC meetings. I look forward to 
continuing and supporting these conservation efforts should I be 
confirmed by the Senate.
    Question 4. I recently introduced legislation (S. 1380) to help 
save the endangered North Atlantic Right Whale. I felt that this 
legislation was necessary because over the past 5 years Congress has 
appropriated significant funding for right whale research and other 
activities, but quite frankly it doesn't appear that we are any closer 
in terms of a plan or strategy on how to recover this magnificent 
whale. Meanwhile the population of right whales continues to decline.
    --Could you give me your personal commitment to work with me and my 
staff on developing strong legislation and helping us get the bill 
enacted this Congress?
    Answer: I am aware that NOAA Fisheries is working diligently to 
address the very serious right whale problem in the Northwest Atlantic 
Ocean. I thank you for highlighting the pressing nature of continued 
right whale survival in Congress by introducing your right whale 
legislation (S. 1380). I give you my personal commitment that if 
confirmed, I will work closely with you and your staff to ensure an 
adequately coordinated program for recovery of right whales that 
involves knowledgeable and resourceful constituents in the process.

                               __________
     Responses to Written Questions Submitted by Senator Snowe to 
                    Vice Admiral Conrad Lautenbacher

Litigation-Based Management
    Question 1.  Over the last few years, this Committee has witnessed 
the disturbing trend of NOAA regulating based on litigation, or the 
fear of litigation, and not based on sound science and resource 
management policies. At times, such as the case of the bluefin tuna 
spotter plane ban, it was because the agency was not able to compile a 
regulatory record that could withstand judicial scrutiny. Other times, 
such as the case with the agency refusing to stand by the Maine 
Atlantic Salmon Conservation Plan instead of listing under the 
Endangered Species Act, it was based on incomplete science and a fear 
of alienating certain special interest groups.
    a. Do you believe that this is the best approach to managing our 
nation's natural resources?
    b. If confirmed, what steps will you take to ensure that NOAA 
returns to science based management actions and away from merely being 
reactive to litigation?
    Answer: I strongly agree that management decisions related to our 
natural resources should be based on sound science. I will work hard to 
make that happen. My current understanding is that many of NOAA's 
lawsuits stem from compliance and process issues and not necessarily 
the science behind the policy decisions. Dr. William Hogarth, Assistant 
Administrator for NOAA Fisheries, is looking at internal organization 
and procedures and is also working with the Regional Fishery Management 
Councils (Councils) and other interested parties to ensure that NOAA 
Fisheries has fully integrated the requirements of the Endangered 
Species Act (ESA), the National Environmental Policy Act (NEPA), and 
other statutes. In addition, funding that Congress has provided to help 
NOAA Fisheries improve compliance and reduce litigation problems has 
proven especially useful. Should I be confirmed, I will support Dr. 
Hogarth's efforts to ensure that NOAA Fisheries manages our living 
marine resources effectively and efficiently, based on sound science.

Accountability of NMFS
    Question 2. As a mathematician, naval strategist, and commanding 
officer, you no doubt understand how important it is to make informed 
decisions. You have been nominated to run a regulatory agency that 
should be accountable for the science it relies on and the resulting 
management decisions. Unfortunately, such accountability has been 
sorely lacking in fisheries management. During the last Congress, I 
chaired 6 hearings across the country as part of the reauthorization of 
the Magnuson-Stevens Act--our nation's primary fisheries management 
law. At each and every hearing, a wide range of stakeholders pointed to 
the lack of good science being utilized in management decisions.
    Due to this lack of accountability, people have lost confidence in 
the Department of Commerce's ability to manage our valuable natural 
resources. Finding a way to correct this is one of the top challenges 
this Committee has faced as we proceed with the reauthorization of the 
Magnuson-Stevens Act.
    a. If confirmed, how will you seek to improve accountability in 
fisheries management?
    Answer: Accountability of federal agencies is an extremely 
important issue to me, and I understand its importance to your 
constituents as well. I am aware that Dr. William Hogarth is already 
taking steps to improve accountability at NOAA Fisheries through 
improved NEPA compliance and making the process transparent to its 
constituents. He is also making changes in organization structure and 
agency procedures. Funding provided by the Congress for this effort has 
been especially helpful. Should I be confirmed, I intend to work with 
NOAA Fisheries staff throughout the country to ensure that the agency 
is conducting itself in a way that restores the public's confidence.
    b. How will you seek to improve both the quality and quantity of 
data being used?
    Answer: It is extremely difficult to manage natural resources 
effectively without good data. In the case of fisheries, it is 
particularly difficult to obtain information in the quality and 
quantity that fishery managers need to perform their job effectively. 
Despite the difficulties, multiple NRC reviews have confirmed the high 
quality of NOAA Fisheries Science and that science has withstood court 
challenges. However, these NRC studies also have emphasized the need to 
improve data collection using both traditional programs and new 
approaches. Improving the quantity and quality of data will require 
continued Congressional support. I look forward to working with you, 
should I be confirmed, to ensure that NOAA Fisheries data continues to 
improve.
    c. What role would a national ocean observing system play in such a 
data improvement strategy?
    Answer: Three NOAA offices (Research, Fisheries and Ocean Service) 
currently are working together to develop a common ocean observing 
system and data strategy. Science has shown that changes in oceanic 
conditions can impact fish production and sustainable fishery yields. 
Ecosystem management also requires a close integration of information 
on abundance trends of living resources as well as processes that 
affect those resources, such as climate. In addition, NOAA forecasts of 
climate, coastal, and marine conditions are beneficial for the safety 
and efficiency of fishing operations. An integrated and coordinated 
ocean observing system will help NOAA better understand and predict all 
of these processes that affect both fish populations and the fishermen 
who rely upon them. If confirmed, I look forward to working with Dr. 
Evans, Dr. Hogarth, and Ms. Margaret Davidson to address ways in which 
a national and coastal ocean observing system can provide data leading 
to improved management decisions.

Regulatory Stability
    Question 3. In 1996, the United States made the commitment to end 
overfishing in our waters and rebuild overfished fisheries. The 
transition to sustainable fisheries has not been an easy one and many 
difficult, but necessary, management measures have been adopted. 
Unfortunately, this has resulted in a never-ending morass of 
regulations.
    For example, New England groundfishing regulations were changed 5 
times in 1999 and another 4 times in 2000. While I support a management 
regime that is responsive to new information, we can clearly see that 
there is absolutely no regulatory stability in our commercial 
fisheries. This makes it extremely challenging for our fishermen to run 
their businesses and nearly impossible for the Coast Guard and 
enforcement agents to keep up.
    a. If confirmed, how will you work to bring an element of 
regulatory stability to fisheries management?
    Answer: Fishermen are businessmen and need stability to plan and 
manage operations effectively. I understand that Dr. Hogarth is 
currently working with NOAA Fisheries' offices, regions and the 
Councils to examine options for changing the annual regulatory process. 
Over the next year, workgroups in each Council will evaluate regulatory 
streamlining options and strategic planning. This will provide 
fishermen with a much better opportunity to make business plans and 
capital investments and foster sound conservation management. I look 
forward to working with you, should I be confirmed, to find better ways 
to balance fishery conservation and fishermen's social and economic 
needs.

Public Process
    Question 4. Recently, the National Marine Fisheries Service 
published three notices in the Federal Register regarding changes in 
the management measures needed to protect North Atlantic right whales. 
They are all pieces of a rather complex regulatory puzzle. 
Unfortunately, the way it was handled, stakeholders were put into the 
position of having to make decisions about part of the puzzle as it 
relates to dynamic area management without seeing the full proposal or 
environmental impact statement on seasonal area management.
    In essence, NOAA is denying stakeholders the ability to look at the 
entire proposal and provide comments on measures that will greatly 
impact their livelihoods. While this may meet the letter of the law, it 
certainly falls far short of the intent.
    a. If confirmed, what steps will you take to enhance and encourage 
public participation in the regulatory process?
    Answer: Clearly, public participation in the regulatory process is 
a necessity. I am aware that Dr. Hogarth continues to make NOAA 
Fisheries more open and transparent to the public. NOAA Fisheries is 
already beginning a number of changes to improve public involvement in 
fishery management decisions. Using the NEPA process, NOAA Fisheries 
and the Councils will prepare information on all the requirements of 
the ESA and other laws much earlier in the process and in full public 
view. A NOAA Fisheries Office of Constituent Affairs and a pilot 
project looking at electronic rulemaking were started in November. If I 
am confirmed, I will work to ensure an open process and look for other 
improvements to enhance public participation.

Intra-agency Cooperation and Coordination
    Question 5. NOAA's different offices have a tremendous range of 
expertise. Often, the agency's missions overlap the capabilities of the 
different line offices. For example, the National Ocean Service was 
able to provide the National Marine Fisheries Service with fisheries 
habitat maps when they began implementing the Essential Fish Habitat 
mandate. Unfortunately, the relationship between the line offices does 
not always include such a level of cooperation and coordination. At 
times, one office may need to duplicate the work of another simply 
because they don't know what has already been done. This is highly 
inefficient in terms of both time and money.
    a. If confirmed, what will you do to encourage and enhance inter-
agency cooperation and coordination?
    Answer: Effective cooperation and coordination of all components of 
NOAA is a high priority for me. If confirmed, I will be reviewing all 
levels of NOAA management with the goal of creating a more efficient 
and effective agency that will better serve the needs of the American 
public.

Atlantic Salmon/Endangered Species
    Question 6. In 1997, the National Marine Fisheries Service and U.S. 
Fish & Wildlife Service had withdrawn a petition to list Atlantic 
salmon in 8 Maine rivers saying that the Maine Atlantic Salmon 
Conservation Plan met this same goal. This Maine Plan was developed 
over a period of 18 months involving over 75 stakeholders, including 
the federal government. So you can imagine my extreme disappointment 
when 2 years into the 5-year plan the Services abruptly changed course 
and listed.
    I understand that NMFS unsuccessfully tried to use this state-
oriented procedure with regard to Oregon salmon stocks. At the time, 
the agency touted both state plans as an example of the flexibility 
inherent in the Endangered Species Act. In the case of the Oregon Plan, 
it relied heavily on voluntary measures and was subsequently defeated 
in court because of the plans lack of mandatory measures. The state of 
Maine's plan did include mandatory measures, yet it is my understanding 
the NMFS withdrew their support for the plan for fear of another 
litigation defeat.
    a. Can you briefly tell the committee what you consider to be the 
advantages and disadvantages of allowing states to take the lead in 
developing endangered species recovery plans?
    Answer: Clearly, states should play an important role in developing 
endangered species recovery plans. State natural resource agencies are 
valuable sources of knowledge regarding living marine resources and 
must continue to be involved in rebuilding endangered populations. 
Close partnerships with states allow leveraging of resources and 
support at the local level.
    b. Could you please tell the committee what you will do to help 
promote the better use of science in the endangered species listing 
process?
    Answer: I know that the listing of Atlantic Salmon has been a very 
serious issue for your home state of Maine and that it has had 
considerable effects on the Maine economy. If confirmed, I will work to 
ensure that NOAA Fisheries continues to improve both the quality and 
quantity of its science used in the endangered species listing process.

                               __________
     Responses to Written Questions Submitted by Senator Wyden to 
                    Vice Admiral Conrad Lautenbacher
    Question 1. The National Marine Fisheries Service (NMFS) has been 
conducting stock assessment surveys in the West Coast groundfish 
fishery every 3 years instead of every year. They do not have adequate 
data on the 83 species that comprise the groundfish fishery. The law 
states that a precautionary management approach is required to conserve 
the stocks we have left.
    --How will you ensure that NMFS has the resources to conduct 
scientifically valid stock assessments on an annual basis?
    --Can you assure me that NMFS will have the resources to remedy 
this problem and will enthusiastically work with fishermen toward 
sustainability?
    Answer: I believe that groundfish stock assessments should be based 
upon the best available science. I understand that NOAA Fisheries 
conducts annual trawl surveys for these species using chartered 
commercial fishing vessels. I am also told that the agency plans to 
evaluate West Coast groundfish surveys to improve the accuracy and 
efficiency of annual surveys and will work with the fishing industry 
scientists to conduct other experimental acoustic surveys. If 
confirmed, I will work with NOAA Fisheries to explore innovative ways 
to work to improve stock assessments.
    Question 2. It has been 3 years since NMFS promised to get 
observers on the groundfish fishery boats. They are finally out there 
this fall getting NMFS additional data regarding stocks and bycatch.
    --Can you assure me that you will fully support this program and 
its expansion?
    Answer: I understand that NOAA Fisheries is committed to supporting 
a robust observer program aimed at providing the necessary information 
to manage groundfish effectively. Congress' $1.8 million increase for 
the observer program in fiscal year 2002 will significantly further 
this program. Industry data collection is also important. If confirmed, 
I will continue to work to support both of these initiatives.
    Question 3. The Capital Construction Fund (CCF) was useful when we 
needed to increase the capacity of our nations' fisheries, but now that 
stocks have been declining, we need to help fishermen retire, or leave 
the fishery for good, rather than encouraging them to upgrade their 
vessels and gear. The final section of S. 973, ``Pacific Coast 
Groundfish Fishery Preservation Act,'' authorizes fishermen to withdraw 
funds without penalty from their CCF if they are going to retire or 
quit fishing altogether.
    --What do you think of this approach?
    Answer: I agree that reforming the Capital Construction Fund is an 
idea that has merit and should be pursued. I am aware that the 
Department of Commerce has been exploring potential changes to the Fund 
in order to make it more flexible and if confirmed will work with you 
on this issue.

                               __________
     Responses to Written Questions Submitted by Senator Inouye to 
                    Vice Admiral Conrad Lautenbacher
    Question 1. Recently, NOAA has been the target of numerous lawsuits 
brought by environmental groups alleging that the Administration has 
failed to comply with statutes such as the ESA. I believe that our 
precious natural resources should not be managed by litigation, but by 
management plans carefully crafted with input from all legitimately 
interested parties. What are your plans to bring NOAA into better 
compliance with environmental laws so that our natural resources may be 
managed more efficiently and fairly?
    Answer: I strongly agree that management decisions related to our 
natural resources should be based on sound science. I will work hard to 
make that happen. My current understanding is that many of NOAA's 
lawsuits stem from compliance and process issues and not necessarily 
the science behind the policy decisions. Dr. Hogarth, Assistant 
Administrator for NOAA Fisheries, is looking at internal organization 
and procedures and is also working with the Regional Fishery Management 
Councils (Councils) and other interested parties to ensure that NOAA 
Fisheries has fully integrated the requirements of the ESA, NEPA, and 
other statutes. In addition, funding that Congress has provided to help 
NOAA Fisheries improve compliance and reduce litigation problems has 
proven especially useful. Should I be confirmed, I will support Dr. 
Hogarth's efforts to ensure that NOAA Fisheries manages our living 
marine resources effectively and efficiently, based on sound science.
    Question 2.  NOAA conducts much basic research on marine and 
oceanic matters in order to support the policy decisions that NOAA 
makes, but this research sometimes misses the mark. For example, in 
Hawaii, the Congress has appropriated millions upon millions of dollars 
for research regarding the Green Sea Turtle. Little of that research, 
however, is relevant to the most pressing problem that NOAA's National 
Marine Fisheries Service faces in the Pacific: how to design fishing 
gear that is safe for turtles. Now, millions more must be appropriated 
so that relevant research may be conducted. As the head of NOAA, what 
would you do to ensure that NOAA's laboratories are better tied in to 
NOAA's overall mission?
    Answer: I believe coordination among NOAA headquarters, field 
offices and laboratories is vital to ensuring that NOAA moves forward 
with its overall mission. I am not yet familiar with the research that 
NOAA Fisheries has conducted on the Green Sea Turtle. However, I 
understand the value of gear research. I am told that work in the 
Hawaii longline fishery is underway with complementary efforts in the 
Atlantic. NOAA Fisheries must continue to balance the economic 
viability of the longline fishery and protection for endangered 
species. Should I be confirmed, I look forward to working to improve 
NOAA effectiveness in this difficult arena.
    Question 3.  Within the past year or two, the Department of the 
Interior has started to take the position that its jurisdiction extends 
12 miles out into the oceans around wildlife refuges. The Department of 
Commerce, however, has assumed jurisdiction over coastal waters 
starting from 3 miles from the coastline under the Magnuson Act. What 
steps will you take to clarify that the jurisdiction of the Department 
of the Interior extends only 3 miles from the coastline, as mandated by 
the Magnuson Act?
    Answer: I understand that this is a concern to you and your 
constituents and also that the Department of Justice (DOJ) has looked 
into this matter. Although I have not seen the opinion, I will, if 
confirmed, review the matter to determine its effect on NOAA's ability 
to manage marine resources. I will work with you and the Administration 
to resolve any outstanding concerns related to this issue.
    Question 4.  What is the status and likely disposition of the 
Department of Commerce's review of President Clinton's Executive Order 
regarding the protection of the coral reefs in the Northwest Hawaiian 
Islands?
    Answer: I understand that the National Marine Sanctuaries Act 
(NMSA) Amendments of 2000 direct the designation of a National Marine 
Sanctuary in the Northwestern Hawaiian Islands. Secretary Evans has 
said that while the sanctuary designation process and review of the 
Executive Orders are underway, the Department will continue to use 
conservation and management measures under existing statutory 
authorities to manage these unique resources consistent with the 
purposes and policies of the NMSA. If confirmed, I will work within the 
Administration to develop a proposal that accommodates the various 
views and concerns surrounding this issue.
    Question 5.  What is NOAA's overall strategy for managing 
endangered species, such as the Monk Seal, and Green Sea Turtles, so 
that the many healthy Pacific fisheries may either remain open or be 
re-opened?
    Answer: I understand that NOAA continues to work within its 
programs, with other agencies and stakeholders under the ESA and the 
Marine Mammal Protection Act to minimize the impact of human activities 
on these species. NOAA Fisheries has also finalized recovery plans for 
all of the sea turtles found in U.S. waters and for the Hawaiian Monk 
Seal and continues to implement the recovery efforts outlined in those 
reports. Ensuring that Pacific fisheries remain open or be re-opened is 
important to NOAA, as well as to you and your constituents. If 
confirmed, I will continue to work with you and NOAA Fisheries to 
develop innovative and cooperative solutions to conservation problems.
    Question 6.  Does NOAA support the formation of a new Pacific 
Region within the National Marine Fisheries Service so that the needs 
of Hawaii and the Pacific will be addressed promptly and thoroughly?
    Answer: I recognize the uniqueness of the fisheries' needs in 
Hawaii and the Western Pacific and I believe both NOAA and the 
Department of Commerce support the formation of a new Western Pacific 
Region within NOAA Fisheries. I also recognize that we must continue to 
take care of various issues within the Southwestern U.S., where Hawaii 
fisheries' issues are currently handled. Should I be confirmed, I look 
forward to working with you on this issue while continuing to balance 
and support the needs of California fisheries.
    Question 7.  If NOAA does not support the formation of a new 
Pacific Region, what concrete steps will the Administration take to 
ensure that Pacific issues are properly addressed?
    Answer: I believe both NOAA and the Department of Commerce support 
the formation of a new Western Pacific Region within NOAA Fisheries.

                               __________
             Prepared Statement of Senator Olympia J. Snowe

    As Ranking Member of the Oceans, Atmosphere and Fisheries 
Subcommittee, and as someone who represents a State with a 3,500-mile 
coastline, and which in 2000 led New England in both the value and 
volume of fisheries, I would like to welcome Admiral Lautenbacher, our 
NOAA nominee, to the Committee.
    NOAA is the largest agency in the Commerce Department, and it has a 
critical mission. The oceans contain essential natural resources, and 
today, we face unprecedented challenges in trying to manage these 
resources. Having worked with the Admiral in the past, I am certain he 
will prove equal to the challenge.
    NOAA is an agency with tremendous scope and reach. It is 
responsible for the National Marine Fisheries Service, or NMFS, which 
administers those programs that support the domestic and international 
conservation and management of living marine resources. NMFS provides 
services and products to support domestic and international fisheries 
management operations, fisheries development, trade and industry and 
assistance activities, enforcement, protected species and habitat 
conservation operations, and the scientific and technical aspects of 
NOAA's marine fisheries program.
    Furthermore, the National Ocean Service under NOAA develops the 
national foundation for coastal and ocean science, management, 
response, restoration, and navigation. The Office of Oceanic and 
Atmospheric Research conducts and directs research in atmospheric, 
coastal, marine, and space science, while the Office of Marine and 
Aviation Operations and National Environmental Satellite Data and 
Information Service operate aircraft, ships and satellites to collect 
data for research. And finally, the National Weather Service plays a 
key role in providing weather, water and climate warnings and forecasts 
that are widely used and relied upon not only for recreation, but for 
the livelihood of countless Americans.
    In other words, NOAA is in the ocean, on the ocean, in the 
atmosphere and above the atmosphere--that's covering an awful lot of 
territory. As such, the work of NOAA impacts a tremendous number of 
Americans, and vice versa. More than half of the U.S. population lives 
on the 10 percent of U.S. land designated as the coastal zone. And the 
size of our coastal population grows every year, placing increasing 
strains on coastal resources.
    We are at a precarious time in terms of our fisheries, and our 
fishermen, and the statistics speak for themselves. Of the 157 fish 
stock groups for which we know the utilization status, 36 percent are 
over-utilized, and another 44 percent are fully utilized. These 
fisheries had a dock-side landings value in 2000 of nearly $3.5 
billion, and the value of processed fisheries products exceeded $7.2 
billion in 2000.
    This production easily employs over 100,000 people in the United 
States, and in my home State of Maine alone, fisheries help employ more 
than 22,000 people. It will be one of Admiral Lautenbacher's greatest 
responsibilities to protect not only the fish, but also the fishermen, 
and I believe his experience and leadership make him well qualified for 
the task.
    Of course, NOAA's atmospheric mission is equally vital. Its climate 
research programs could not be more critical at a time of renewed 
concern about global warming. And, of course, the National Weather 
Service provides information that is essential to the protection of the 
lives and property of all our citizens. This was well in evidence just 
this past week trying to protect the people of Florida from Hurricane 
Michelle.
    This is a defining time for NOAA--a time that calls for strong 
leadership and a serious and careful commitment to sound scientific 
principles. Unfortunately, we have seen the agency flounder, basing 
regulatory decisions not on science or resource management policy, but 
on litigation or the fear of litigation. I don't want to see a Federal 
agency driven by lawsuits. Rather, our Federal Government should 
function in the best interests of public policy and the American 
people.
    Admiral Lautenbacher brings an exemplary 36-year Naval career 
rising to the rank of Vice Admiral and serving as the Deputy Chief of 
Naval Operations for Resources, Warfare Requirements, and Assessments. 
Most of us would consider that an impressive professional achievement 
in and of itself.
    But the Admiral also holds a PhD from Harvard in Applied 
Mathematics and is well respected for his keen scientific knowledge. To 
me, that's a one-two punch that's almost unbeatable when it comes to an 
agency in need of strong direction from someone who understands 
scientific methods and respects the scientific basis on which so much 
of NOAA's work must rest. This proven track record of leadership, 
combined with his strong familiarity with scientific processes make him 
uniquely suited to this demanding position.
    I've seen Admiral Lautenbacher in action, and I can speak firsthand 
of his intelligence, his grasp of the issues, his obvious penchant for 
preparation, and his ability to think on his feet. In fact, he 
testified on the future of a strong Navy several times before the 
Senate Armed Services Seapower Subcommittee when I served as Chair. I 
have found him to have a firm grasp of the need to balance resources 
with the realities of funding limitations in order to maximize our 
results. NOAA is an agency sorely in need of such an outlook.
    I wanted to offer these comments, Mr. Chairman, as I have had the 
opportunity to work directly with the Admiral and have been very 
impressed with his abilities. I hope the Committee will carefully 
consider this well-qualified nominee, and I want to thank the Chairman 
and thank Admiral Lautenbacher for appearing before this Committee. 
Admiral, I wish you the best as your nomination proceeds.


</pre></body></html>
